July 1, 2021
By Electronic Filing and Overnight Delivery
Scott Harris, Clerk of the Court
Supreme Court of the United States
Office of the Clerk,
1 First Street, N.E.
Washington, D.C. 20543
Re:

Blaine Milam v. Bobby Lumpkin, No. 20-8253

Dear Mr. Harris:
This letter is to request a 30-day extension of time, up to and including August 9,
2021,1 in which to file a brief in opposition in the above-styled cause. This request
for an extension of time is not intended to unnecessarily delay this proceeding.
Rather, other administrative responsibilities and personal matters have prevented
the undersigned from timely answering Milam’s petition.
The undersigned spoke with Jeremy Schepers, counsel for Milam, who does not
oppose this motion.
Thank you for your consideration of this matter.
Sincerely,
TOMEE M. HEINING
Assistant Attorney General
(512) 936-1600
cc:

Jeremy Schepers
Federal Public Defender
Supervisor, Capital Habeas Unit
Northern District of Texas
525 S. Griffin Street, Suite 629
Dallas, TX 75202
214-767-2746
Jeremy_schepers@fd.org

1

The actual due date falls upon Saturday, August 7, 2021.

POST OFFICE BOX 12548, AUSTIN, TEXAS 78711-2548 TEL:(512) 463-2100
An Equal Employment Opportunity Employer

WEB: WWW.TEXASATTORNEYGENERAL.GOV

